COMMODITY FUTURES TRADING COMMISSION

  SEMIANNUAL REPORT
        OF THE




   OFFICE OF THE
INSPECTOR GENERAL




 FOR THE PERIOD ENDING MARCH 31, 2005
                           u.s. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW. Washington. DC 20581
                                              Telephone: (202) 418-5110
                                               Facsimile: (202) 418-5522
                                                     www.cftc.gov


   Office of the                                April 22, 2005
Inspector General




      TO:            Sharon Brown-Hruska
                     Acting Chainnan

      FROM:          A. Roy Lavik
                     Inspector General
                                        Q      rz W~
      SUBJECT:       Semiannual Report of the Office of the Inspector General

             Attached is the Semiannual Report of the Office of the Inspector General for the period
      from October 1, 2004 through March 31, 2005. This report is submitted to you in accordance
      with the requirements of Section 5 of the Inspector General Act of 1978, as amended.

              I appreciate your continuing support of this office.

       Attachment
             OFFICE OF THE INSPECTOR GENERAL
          COMMODITY FUTURES TRADING COMMISSION

                            SEMIANNUAL REPORT
                            FOR THE PERIOD FROM
                    October 1, 2004 THROUGH March 31, 2005



                             TABLE OF CONTENTS

SUMMARY OF OIG ACTIVITIES [including a description of significant problems, abuses,
    and deficiencies and a description of OIG recommendations for corrective action
    (Mandated by Section 5(a)(1) and (2) of the Act)]                                       1
    A"UDITS                                                                                 1
    IN'VESTIGATIONS                                                                         2
    LEGISLATIVE AND REGULATORY REVIEWS                                                      3

OIG RESPONSffiILITIES                                                                       3

OIG RESOURCES                                                                               4

CFTC PROGRAMS AND OPERATIONS                                                                4

COMPLETED WORK                                                                               5
    A"UDITS [including a list of each audit report issued and a summary of each particularly
    significant report (Mandated by Section 5(a)(6) and (7) of the Act)]                     5
    INVESTIGATIONS                                                                           6
    LEGISLATIVE AND REGULATORY REVIEWS                                                       7

AUDIT REPORTS OVER SIX MONTHS OLD                                                           8

       CORRECTIVE ACTION NOT COMPLETED [including an identification of each
       significant recommendation described in previous semiannual reports on which
       corrective action has not been completed (Mandated by Section 5(a)(3) of the Act)]   8
       CORRECTIVE ACTION COMPLETED                                                          8




                                               1
      MANAGEMENT DECISION NOT MADE [including a summary of each audit
      report issued before the commencement ofthe reporting period for which no management
      decision has been made by the end of the reporting period (including
      the date and title of each such report), an explanation ofthe reasons such a
      management decision has not been made, and statement concerning the desired timetable
      for achieving a management decision on each such report (Mandated by Section 5(a)(10)
      of the Act)]                                                                         8

SUMMARY OF MATTERS REFERRED TO PROSECUTIVE AUTHORITIES and
    the prosecutions and convictions which have resulted (Mandated by
    Section 5(a)(4) of the Act)                                                           8

SUMMARY OF EACH REPORT MADE TO THE AGENCY HEAD
    under Section 6(b)(2) concerning information or assistance unreasonably
    refused or not provided (Mandated by Section 5(a)(5) of the Act)                      8

REVISED MANAGEMENT DECISIONS [including description and explanation of
     the reasons for any significant revised management decision made during the
     reporting period (Mandated by Section 5(a)(11) of the Act)]                           8

INSPECTOR GENERAL DISAGREEMENT [including information concerning any
     significant management decision with which the Inspector General is in
     disagreement (Mandated by Section 5(a)(12) of the Act)]                               9

CURRENT AUDITS                                                                             9

GAO LIAISON                                                                               13

STRATEGIC PLAN                                                                            14

CONTACTING THE OFFICE OF THE INSPECTOR GENERAL                                            19

TABLE 1 -- REPORTS ISSUED WITH QUESTIONED COSTS
     (Mandated by Section 5(a)(8) of the Act)                                             20

TABLE 2 -- REPORTS ISSUED WITH RECOMMENDATIONS THAT FUNDS BE PUT
     TO BETTER USE (Mandated by Section 5(a)(9) of the Act)                               21




                                             ii
                   INDEX OF IG ACT REPORTING
                         REQUIREMENTS

Section 5(a)(1)                                 1

Section 5(a)(2)                                 1

Section 5(a)(3)                                 8

Section 5(a)(4)                                 8

Section 5(a)(5)                                 8

Section 5(a)(6)                                 5

Section 5(a)(7)                                 5

Section 5(a)(8)                                20

Section 5(a)(9)                                21

Section 5(a)(10)                                8

Section 5(a)(11)                                8

Section 5(a)(12)                                9




                               111
                       SUMMARY OF OIG ACTIVITIES


AUDITS

        The primary objectives of the Office of the Inspector General (OIG) ofthe Commodity
Futures Trading Commission (Commission, CFTC) are to help promote long-term efficiency and
effectiveness in the administration and operation ofthe Commission and to protect against fraud,
waste, and abuse. This reporting period's OIG audit activities, which are listed below, reflect
these objectives.

Current Audits

        The following are the audits being conducted during the current reporting period and
continuing into the next reporting period. (For additional details, see the section on current
audits beginning on page 9.)

       Audit of CFTC Financial Statements for Fiscal Year 2005. In FY 2002, Congress passed
       the Accountability ofTax Dollars Act. The Act requires the CFTC, along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       objective of this audit is to acquire a contractor who will provide the audit effort required
       to enable the contractor to render an opinion on the agency's financial statements for
       fiscal year 2005 in accordance with generally accepted auditing standards, Government
       Auditing Standards, and OMB Bulletin 01-02. (For additional details, see page 9.)

       Peer Review of External Office of the Inspector General. Each office of the Inspector
       General is subject to a periodic external review. The objectives of this peer review are to
       determine whether the Office of Inspector General's internal quality control system is
       adequate, in place, and operating in compliance with auditing standards promulgated by
       the Comptroller General of the United States; and whether established policies,
       procedures and applicable auditing standards are being followed in practice. (For
       additional details, see page 11.)

       Evaluation Of The CFTC Proceedings Program. In response to observations that the
       workload of the Office of Proceedings has changed markedly over the past few years and
       that the resources of the office may be misallocated, the Office of the Inspector General
       undertook an evaluation of the Office of Proceedings. The evaluation is designed to cover
       the workload and staffing of the Office of Proceedings from FY 1999 to date. (For
       additional details, see page 11.)

        Review of Agency Compliance with GPRA. The Government Performance and Results
        Act of 1993 (GPRA) requires federal agencies to develop strategic plans, prepare annual


                                                 1
       plans setting performance goals, and report annually on actual performance compared to
       goals. The first report was prepared in March 2000. The objective of this review is to
       determine how effectively the Commission is complYing with GPRA's terms. This will
       include an examination of the performance measures devised by the Commission and the
       systems used for gathering the data to report on those performance measures. (For
       additional details, see page 12.)

Completed Audits

         The following audits have been completed during this reporting period. (For additional
details, see the section on completed audits begffiffing on page 5.)

       Audit of CFTC Financial Statements for Fiscal Year 2004. In FY 2002, Congress passed
       the Accountability of Tax Dollars Act. The Act requires the CFTC, along with numerous
       other Federal entities, to have its financial statements audited annually. To this end, the
       objective of this audit is to acquire a contractor who will provide the audit effort required
       to enable the contractor to render an opinion on the agency's financial statements for
       fiscal year 2004 in accordance with generally accepted auditing standards, Government
       Auditing Standards, and OMB Bulletin 01-02. An unqualified audit opinion was issued
       on November 18,2004. (For additional details, see page 5.)

       Audit of Compliance With 5 U.S.C. §2302(c). In 1994, Congress responded to reports
       of widespread ignorance in the federal workforce concerning employees' right to be free
       from prohibited personnel practices, especially retaliation for whistle blowing, by
       enacting 5 U.S.C. §2302(c). That provision charges "[t]he head of each agency" with
       responsibility for "ensuring (in consultation with the Office of Special Counsel) that
       agency employees are informed of the rights and remedies available to them" under the
       prohibited personnel practice and whistleblower retaliation protection provisions of Title
       5. The Office ofthe Inspector General was charged with ensuring compliance with this
       Act.

       This audit sought to ascertain whether the agency had applied for and received
       certification from Office of Special Counselor had independently adopted the five
       notification elements of Office of Special Counsel's certification program. Although the
       audit found that the agency had not received Office of Special Counsel certification of
       compliance with the notification requirements of Title 5 the agency has recently sought to
       notify employees ofthe protections accorded to them under the No-FEAR Act and, more
       specifically, the Whistleblower Protection Act, which was the focus of this audit. (For
       additional details, see page 6.)

INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or



                                                 2
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

       No investigations were pending as of the beginning ofthe reporting period. The OIG
opened one investigation during the reporting period and completed one investigation. (See the
section on investigations beginning on page 6.)

LEGISLATIVE AND REGULATORY REVIEWS
        The OIG reviews proposed and final CFTC regulations, legislation, and selected
exchange rules using the following basic criteria: whether the agency: (1) has identified
specifically the problem(s) to be addressed by the proposal; (2) has defined through case study or
data analysis a clear link between the proposed solution and the identified problem(s); (3) has
specified clearly the means to effectively and efficiently enforce the proposal; (4) has assessed
the likely efficiency and effectiveness of alternative solutions; (5) can reasonably document that
the proposal will yield positive net benefits over the long term; and (6) has met the requirements
of the Regulatory Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its information collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

Legislative Activities

        The Inspector General continues to be involved in legislative activities. Congressional
staff were briefed about the various IG issues.



                              OIG RESPONSIBILITIES


       The Office of the Inspector General in the Commodity Futures Trading Commission was
created in accordance with the Inspector General Act of 1978 (P .L. 95-452), as amended by the
Inspector General Act Amendments of 1988 (P .L. 100-504). The OIG was established to create
an independent unit to:

        •   Promote economy, efficiency, and effectiveness in the administration of CFTC
            programs and operations and detect and prevent fraud, waste, and abuse in such
            programs and operations;

        •   Conduct and supervise audits and, where necessary, investigations relating to the
            administration of CFTC programs and operations;




                                                 3
       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chainnan and Congress fully infonned about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Given that the CFTC does not have extensive contracts or grant making authority, the
OIG's, efforts have been focused on the review of legislative and regulatory proposals and the
monitoring of internal CFTC operations.



                                       OIG RESOURCES

        The OIG consists of the Inspector General, two professional staff members, and a
secretary. All positions have been filled since January 2, 2000. The present Inspector General
assumed his position on October 7, 1990.

       The DIG, on December 4, 1989, signed a Memorandum of Understanding with the Office
ofthe General Counsel (DGC). This Memorandum details the procedures that are used to
provide the DIG with OGC legal services. An OGC staff member has been assigned to provide
such services to the OIG on an as-needed basis.



                   CFTC PROGRAMS AND OPERATIONS

       Congress created the Commodity Futures Trading Commission in 1974 as an
independent agency with the mandate to regulate commodity futures and options markets in the
United States. The Commission's mandate was renewed and/or expanded in 1978, 1982, 1986,
1992, and 1995. In December 2000, the Commission was reauthorized by Congress and the
President through fiscal year (FY) 2005 with the passage ofthe Commodity Futures
Modernization Act of 2000 (CFMA).

         The CFMA transformed the Commission from a front-line regulatory agency to an
oversight regulator. Although the Commission's approach to regulation has changed, the
CFTC's mission has not. The CFTC continues to be responsible for fostering the economic
utility of futures markets by encouraging their competitiveness and efficiency, ensuring their
integrity, and protecting market participants against manipulation, abusive trade practices, and
fraud. Through effective oversight regulation, the CFTC enables the commodity futures markets
better to serve their vital function in the nation's economy -- providing a mechanism for price
discovery and a means of offsetting price risks.




                                                 4
                                   COMPLETED WORK

AUDITS

       The OIG is required to conduct, supervise and coordinate audits ofCFTC programs and
operations and to ensure that the audits are conducted in accordance with generally accepted
government auditing standards. The OIG is also required to recommend changes to existing and
proposed CFTC programs and operations to promote economy, efficiency, and effectiveness and
to prevent and detect fraud and abuse.

          The purpose of these audits is to ensure that:

          •   Funds have been expended in a manner consistent with related laws, regulations, and
              policies;

          •   Resources have been managed effectively and efficiently;

          •   Stipulated program objectives have been achieved; and

          •   Resources have been safeguarded.

          The following audit reports have been issued during the reporting period.


1.        Audit of eYre Financial Statements

Objective.

        In FY 2002, Congress passed the Accountability of Tax Dollars Act. The Act requires
the CFTC, along with numerous other Federal entities, to have its financial statements audited
annually. To this end, the objective of this audit is to acquire a contractor who will provide the
audit effort required to enable the contractor to render an opinion on the agency's financial
statements for fiscal year 2004 in accordance with generally accepted auditing standards,
Government Auditing Standards, and OMB Bulletin 01-02.

Status.

        The 2004 Audit of CFTC Financial Statements was completed and an audit report was
issued on November 18, 2004 in accordance with a written extension from the Office of
Management and Budget. The opinion section of that report states, "the accompanying balance
sheet is presented fairly, in all material aspects, in confonnity with accounting principles
generally accepted in the United States of America." However the report identified three
reportable conditions that are considered to be material weaknesses. They are: Improvement



                                                    5
Needed in Recording Accruals and Preparing Financial Statements; Improvement Needed in
Financial Accounting Process over Journal Entries; and, Financial Management Systems Need
Improvement. Three reportable conditions were also identified. They are: Improvement
Needed in Fixed Asset System; Improvement Needed in Recording Interest on Civil Monetary
Penalties; and, Improvement Needed in Evaluating Undelivered Orders. The OIG and
Management in February 2005 agreed to a remediation plan for addressing all items mentioned
in the audit report.

2.        Audit of Compliance with 5 U.S.C. §2302(c)

Objective.

        In 1994, Congress responded to reports of widespread ignorance in the federal workforce
concerning employees' right to be free from prohibited personnel practices, especially retaliation
for whistle blowing, by enacting 5 U.S.C. §2302(c). That provision charges "[t]he head of each
agency" with responsibility for "ensuring (in consultation with the Office of Special Counsel)
that agency employees are informed ofthe rights and remedies available to them" under the
prohibited personnel practice and whistleblower retaliation protection provisions ofTitle 5.

       This audit focused on the employee notification provision of the Whistleblower
Protection Act. To achieve this notification requirement, this audit sought to ascertain whether
the agency had applied for and received certification from the Office of Special Counselor had
independently adopted the five employee notification elements of the Office of Special
Counsel's certification program.

Status.

        A final audit report was issued in March 2005. The audit found that the agency had not
received Office of Special Counsel certification of compliance with the notification requirements
of Title 5. However, the agency has recently sought to notify employees (via the agency's
intranet) of the protections accorded to them under the No-FEAR Act and more specifically the
Whistleblower Protection Act, which was the focus of this audit.


INVESTIGATIONS

        The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, abuse of authority, or gross waste of funds, or a substantial and specific danger
to the public health and safety.

       No investigations were pending as ofthe beginning of the reporting period. The OIG
opened one investigation during the reporting period and completed the one investigation during
the reporting period.



                                                 6
        In March 2005, the OIG received infonnation of several unauthorized purchase attempts
made on a CFTC issued purchase card. The purchase card was issued to an agency employee for
micro purchases of essential agency goods and services. However, several attempted purchases
were made for goods and services not customarily used in behalf of the agency. The
investigation demonstrated that the card was not out of the employee's control and that the
attempted purchases were unauthorized. The purchase card was canceled and the agency did not
incur any expense due to the unauthorized attempts to purchases goods and services.


LEGISLATIVE AND REGULATORY REVIEWS

        As specified in Section 4(a) (2) of the Inspector General Act of 1978, the OIG reviews
the impact of existing and proposed legislation and regulations on CFTC programs and
operations and makes recommendations regarding more effective or efficient alternatives or
protections against fraud and abuse. The OIG also reviews selected exchange rule proposals and
changes.

      The OIG has notified the responsible Divisions as to any concerns with draft and final
documents relating to legislation, rules or investigations. Fonnal comments were not filed with
the Commission.

RULE REVIEWS INITIATED IN PREVIOUS REPORTING PERIODS

        There were no rule reviews initiated in previous reporting periods which were continued
into this reporting period.

RULE REVIEWS INITIATED THIS REPORTING PERIOD

        The OIG has reviewed the numerous rules required by the CFMA. The CFMA altered
the relationship of the Commission to the futures industry in many regards and the rules sought
to reflect this change.


Legislative Activities

      The Inspector General continues to be involved in legislative activities and contact has
been made with congressional staffon various IG issues.




                                                7
              AUDIT REPORTS OVER SIX MONTHS OLD


CORRECTIVE ACTION NOT COMPLETED
       There were no instances of audit reports over six months old where corrective action had
not been completed.

CORRECTIVE ACTION COMPLETED
       There were no instances of reports issued before the commencement of the reporting
period for which corrective action had been completed by the end of the reporting period.

MANAGEMENT DECISION NOT MADE

       There were no instances of reports issued before the commencement of the reporting
period for which a management decision had not been made by the end of the reporting period.



                SUMMARY OF MATTERS REFERRED TO
                   PROSECUTIVE AUTHORITIES

       No matters were referred to prosecutive authorities during the reporting period

                SUMMARY OF EACH REPORT MADE TO
                      THE AGENCY HEAD

        No reports were made to the agency head under section 6(b)(2) concerning infonnation
or assistance unreasonably refused or not provided.

                  REVISED MANAGEMENT DECISIONS

       No management decisions were revised during the reporting period.




                                                8
                   INSPECTOR GENERAL DISAGREEMENT

        The Inspector General has an ongoing disagreement with the management decisions
made by a previous Chainnan on OIG recommendations contained in the investigation of the
hiring process detailed in the semiannual report for the period ending September 30, 2004.



                                     CURRENT AUDITS

           The audit agenda and priorities for the OIG are detennined based on the following
factors:

           •   Statutory and regulatory requirements;

           •   Adequacy of internal control systems as indicated by vulnerability assessments and
               internal control reviews recommended by OMB Circular A-123;

           •   Changes in the program conditions or particular vulnerability of the organization,
               program, activity, or function to problems or deficiencies;

           •   Current and potential dollar magnitude and likely benefits of a review on the
               efficiency or effectiveness of CFTC programs and operations;

           •   Management priorities and improvements that may be possible;

           •   Results of audits of CFTC programs and operations by other Federal agencies; and

           •   Availability of audit resources and the potential opportunity costs to the agency.

       The audit agenda and summary ofprogress for each audit, which has not yet been
completed, is summarized below. New agenda items periodically will be added, as appropriate,
along with a description of the audit objective for each.

1.         Audit ofCFfC Financial Statements for Fiscal Year 2005

 Objective.

         In FY 2002, Congress passed the Accountability ofTax Dollars Act. The Act requires
 the CFTC, along with numerous other Federal entities, to have its financial statements audited
 annually. To this end, the objective of this audit is to acquire a contractor who will provide the
 audit effort required to enable the contractor to render an opinion on the agency's financial



                                                     9
statements for fiscal year 2005 in accordance with generally accepted auditing standards,
Government Auditing Standards, and OMB Bulletin 01-02.

The specific objectives of this audit are to determine whether:

       (1) The financial statements present fairly the financial position of the Commodity
       Futures Trading Commission in accordance with generally accepted accounting
       principles (GAAP) as promulgated by the Federal Accounting Standards Advisory Board
       (FASAB). The six financial statements, along with all corresponding notes to be audited
       include: (a) Balance Sheet; (b) Statement ofNet Cost; (c) Statement of Changes in Net
       Position; (d) Statement ofBudgetary Resources; (e) Statement of Financing; and (f)
       Statement of Custodial Activity.

       (2) Management's assertions about the effectiveness of its internal controls for achieving
       internal control objectives described in AU Section 319 and the Federal Managers
       Financial Integrity Act (FMFIA) are fairly stated in all material respects. The contractor
       shall make this detennination in part by obtaining an understanding of the internal control
       policies and procedures and assessing the level of control risk relevant to all significant
       cycles, classes of transactions, and account balances. For those significant control
       policies and procedures that have been properly designed and placed in operation, the
       contractor shall perform sufficient tests to provide reasonable assurance as to whether the
       controls are effective and working as designed.

       The independent public accountant (IPA) will limit its internal control testing to those
       controls necessary to achieve the objectives described in OMB Bulletin 01-02. Further,
       the IPA is not required to test all internal controls relevant to operating objectives as
       broadly defined by the Federal Manager's Financial Integrity Act of 1982, such as those
       controls relevant to achieving efficient operations.

        With respect to internal controls related to perfonnance measures reported in the
        accountability report, the IPA will obtain an understanding of the design of significant
        internal controls relating to the existence and completeness assertions, as required by
        OMB Bulletin 01-02. The procedures are not required to provide assurance on internal
        controls over reported perfonnance measures.

        (3) The agency has complied with selected provisions of laws and regulations identified
        by OMB Bulletin 01-02 or the Inspector General, noncompliance with which could have
        a direct and material effect on the detennination of financial statement amounts. The IPA
        will limit its tests ofcompliance to these provisions and need not test compliance with all
        laws and regulations applicable to the CFTC.

        (4) The information in the "Overview of the Reporting Entity" is consistent in content
        and presentation with the information in the principal statements and the related notes
        consistent with Statements on Auditing Standards (SAS) No.8, Other Information in
        Documents Containing Audited Financial Statements.




                                                 10
Status.

       An independent public accounting finn was selected on January 15,2004 to complete the
2004 CFTC Financial Statement Audit. Their audit report was delivered on November 18, 2004.
The same finn under an option year of the contract began this audit with an opening meeting on
March 11,2005. Initial interviews ofCFTC employees were conducted, and an audit plan was
delivered to the Office of the Inspector General. The plan was reviewed, modified, and
implemented. The final report is to be delivered on November 15,2005.

2.        Peer Review of External Office of the Inspector General

Objective.

        Each office of the Inspector General is subject to a periodic external review. The
objectives of this peer review are to determine whether the Office of Inspector General's internal
quality control system is adequate, in place, and operating in compliance with auditing standards
promulgated by the Comptroller General of the United States; and whether established policies,
procedures and applicable auditing standards are being followed in practice.

Status.

       The data gathering phase has commenced. An interview of the external Office of
Inspector General was conducted in March 2005. The report is expected to be finalized before
the end ofthe calendar year.

3.        Evaluation of the CYrC Proceedings Program

Objective.

       The first objective of this evaluation is to determine if the current number of decision
making officials (Administrative Law Judges and Judgment Officers) and their staffs can be
supported by the current level ofwork available. The second objective of this evaluation is to
determine whether the current number of staff in the Proceedings Clerk's Office and the
Complaints Section of the Office ofProceedings can be supported by the current level ofwork
available.

Status.

        The data gathering phase has commenced. After compiling and analyzing historical
workload data, the team will initiate interviews with all staff in the Office ofProceedings.
Following the interviews, the team will evaluate the collected information and prepare and
circulate a report.




                                                11
4.        Review of Agency Compliance with GPRA

Objective.

        The Government Performance and Results Act of 1993 requires federal agencies to
develop strategic plans, prepare annual plans setting performance goals, and report annually on
actual performance compared to goals. The first report was prepared in March 2000. The
objective of this review is to determine how effectively the Commission is complying with
GPRA's terms. This will include an examination of the performance measures devised by the
Commission and the systems used for gathering the data to report on those performance
measures.

Status.

       In response to Congressional interest, the OIG consulted with and advised the
Commission's operating divisions concerning GPRA requirements. The Office ofthe Inspector
General reviewed the Commission's FY 2001, FY 2002, FY 2003 and FY 2004 Annual
Performance Plan before each was submitted to Congress. The OIG also reviewed the FY 2005
Annual Performance Plan that was included with the FY 2005 budget estimate which were
combined into the FY 2005 Budget & Performance Estimate submitted to the Office of
Management and Budget in FY 2004.

          Subsequently, the OIG selectively reviewed the FY 1999, FY 2000, FY 2001, FY 2002
and FY 2003 Annual Performance Reports after they were submitted to Congress. However, in
FY 2004 the DIG reviewed the agency produced Peformance and Accountability Report prior to
it being submitted to the Office of Management and Budget. The FY2004 PAR contained three
sections which are: the first audited (by OIG/KPMG) Financial Statements of the agency; the
FY 2004 Annual Performance Report as well as a Management Discussion and Analysis of
operations section. The DIG concluded that the agency had made improvements in defining its
goals and identifying measures for reaching its stated goals.

       The CFMA, which was enacted in fiscal year 2001, fundamentally changed the
regulatory structure for the commodity futures markets. The Commission adopted new rules and
procedures consistent with the regulatory reforms presented in that Act. This wholesale change
in approach challenged each operating division to redefine its service goals under GRPA. The
agency implemented a reorganization that allows the Commission to more effectively respond to
the new Act.

        The OIG participated in a number of discussions on how to best reflect the agency's new
regulatory paradigm in structuring future goals and measures under GPRA. In conjunction with
other federal agencies' Inspectors General, the DIG is participating in the development ofbest
practices for measuring compliance with the requirements of GPRA. The DIG is reviewing the
goals and objectives prepared by senior managers for adherence to the requirements of GPRA.
After this review, the DIG will verify and validate a subset of the data submitted in the GPRA
report.




                                                12
                                      GAO LIAISON

        The OIG is charged with providing policy direction for, and conducting, supervising, and
coordinating audits and investigations relating to CFTC programs and operations. In addition,
the OIG is required to recommend policies for, and conduct, supervise, and coordinate with other
Federal agencies, state and local governmental agencies, and nongovernmental entities, audits,
investigations, and evaluations regarding the economy, efficiency, and effectiveness of CFTC
programs and operations.

       GAO also conducts audits of CFTC activities, and OIG plans its audits so as not to
duplicate GAO's efforts. Moreover, OIG in its audits activities identifies the goals of each audit
and the methods ofreaching the goals so as to minimize the requirements placed on CFTC
resources.

        During this reporting period the OIG has met on several occasions with and coordinated
its audit activities with staff from the GAO.




                                                 13
                        STRATEGIC PLAN
                            FOR THE
                OFFICE OF THE INSPECTOR GENERAL


INTRODUCTION

       The Office ofthe Inspector General (OIG) in the Commodity Futures Trading
Commission (CFTC) was created in accordance with the Inspector General Act of 1978 (p.L. 95-
452), as amended by the Inspector General Act Amendments of 1988 (p.L. 100-504). The OIG
was established to create an independent unit to:

       •   Promote economy, efficiency, and effectiveness in the administration of CFTC
           programs and operations and detect and prevent fraud, waste, and abuse in such
           programs and operations;

       •   Conduct and supervise audits and investigations relating to the administration of
           CFTC programs and operations;

       •   Review existing and proposed legislation, regulations, and exchange rules and make
           recommendations concerning their impact on the economy and efficiency of CFTC
           programs and operations or the prevention and detection of fraud and abuse; and

       •   Keep the Chairman and Congress fully informed about any problems or deficiencies
           in the administration of CFTC programs and operations and provide
           recommendations for correction of these problems or deficiencies.

        Accordingly, the OIG has established three programs to carry out its responsibilities:
audit, investigation, and legislative and regulatory review. A summary of those programs
follows.

AUDIT

        The primary objectives of the OIG are to promote long-term efficiency and effectiveness
in the administration and operation of the Commission and to protect against fraud and abuse.

        The key to effectively and efficiently managing the CFTC is information. Top level
managers and decision makers require a steady stream of organized data on the effects oftheir
policy decisions and resource allocations on the operations of the Commission. Once having
made the decision to change resource levels or policy, managers must receive accurate and
timely reports of the operational effects of their decision so they can determine ifthe change is in
the direction and of the magnitude predicted. In the absence of such information, top level
managers cannot adequately perform their jobs.




                                                 14
        A number of obstacles to acquiring and transmitting the desired information to decision
makers may exist in some programs. Principal among them is the Commission's apparent
difficulty in many instances in tracking the progress of a particular action across organizational
lines within the Commission.

        A simple example is the Reparations Program prior to the installation of an OIG
recommended unified, Commission-wide tracking system. Complaints are received and
processed and hearings are held in the Office ofProceedings; appeals of initial decisions in
reparations cases are transmitted to the Office of the General Counsel where proposed
Commission opinions are drafted; and appeals are decided by the Commission with the
paperwork being handled by the Office of the Secre~ariat. Each office involved in the process
had a separate tracking system without ties to the tracking systems in the offices preceding them
or following them in the process. Each office treated the case as if it were brand new to the
Commission when they received it. As a result, there was no provision for tracking information
across organizational lines. Ifthe Chairman wanted to know how much time was spent on the
average reparations case of a particular description at each stage in the process, that information
was unavailable without an extensive expenditure of manual labor.

        A related problem is the difficulty the Commission has in associating resources devoted
to an activity with the results of that activity. The Commission does a good job oftracking
resources expended. It can determine how much stafftime and material at what cost was spent
in a particular activity. Some Commission organizations can even associate costs with particular
projects. What a program manager may have great difficulty doing, however, is telling a
decision maker that, for a specific level or increase in resources, the program manager will
deliver a specific level of increased output. Without this information from all programs
competing for limited resources, decision makers cannot make reasoned resource allocation
judgements. Decision makers are forced to rely on intuition and anecdotal evidence.

       To increase the efficiency and the effectiveness of the management of CFTC programs
and operations, the OIG will, in addition to conducting mandatory audits, concentrate its audit
resources on the identification of information voids and the lack of continuity in the flow of
information across organizational lines from the beginning of a process until its conclusion. The
OIG will recommend the implementation of any system improvements where the benefits of
implementing the change exceed the costs.

        In addition to our efforts to bring technology to bear on the information requirements of
the Commission, the OIG has been following the Commission's development ofmeasures and
systems of measurement in response to the Government Performance and Results Act (GPRA).
As the Commission implements GPRA, the OIG will devote significant resources to monitoring
agency performance to insure that the data is accurately gathered and that the measures reported
are the best available for demonstrating program performance.

INVESTIGATIONS

       The Inspector General Act of 1978, as amended, provides that the Inspector General may
receive and investigate complaints or information from the Commission's employees concerning



                                                 15
the possible existence of an activity constituting a violation of law, rules or regulations, or
mismanagement, gross waste of funds, abuse of authority or a substantial and specific danger to
the public health and safety.

        The GIG has to date conducted only a reactive investigative program chiefly relying on
unsolicited employee complaints as the source of investigative leads. This reactive program has
resulted in only a handful of investigations per year. This strategy was followed because the
GIG believed that an independent regulatory agency such as the CFfC, without grant money or
substantial contracts to award, was not likely to generate a substantial investigative workload.

        To insure that employee complaints could easily reach the GIG, a 24-hour hotline was
established in February 1993 to receive complaints. The hotline's existence is publicized on the
back cover of this semiannual report.

       Because of the reactive nature ofthe GIG's investigative program, no investigative
agenda has been established.

LEGISLATIVE AND REGULATORY REVIEW

        Because of the importance of this activity in an economic regulatory agency, the GIG
reviews proposed and final CFTC regulations, legislation, and selected exchange rules using six
basic criteria: Whether the agency: (1) has identified specifically the problem(s) to be addressed
by the proposal; (2) has defined through case study or data analysis a clear link between the
proposed solution and the identified problem(s); (3) has specified clearly the means to
effectively and efficiently enforce the proposal; (4) has assessed the likely efficiency and
effectiveness of alternative solutions; (5) can reasonably document that the proposal will yield
positive net benefits over the long tenn; and (6) has met the requirements of the Regulatory
Flexibility Act and the Paperwork Reduction Act.

        The Regulatory Flexibility Act requires the agency to evaluate the impact of its
regulations on small entities. The Paperwork Reduction Act requires the agency to manage
effectively and efficiently its infonnation collections so that they are the least burdensome
necessary to achieve the stipulated objectives.

        Because the GIG does not initiate legislation or, generally, regulations, the GIG
legislative and regulatory review program is reactive to the legislative and regulatory proposals
developed by others. Accordingly, no independent legislative and regulatory review agenda has
been established.




                                                16
                                       AUDIT AGENDA

ANNUAL AUDITS

       The following audit is performed on an annual basis.

Audit of Compliance with the Federal Managers' Financial Integrity Act

       In support ofOMB Circular A-123 (Revised), the Inspector General will evaluate,
provide technical assistance, and advise the agency head as to whether the agency's review and
evaluation process was conducted in accordance with the circular's requirements.

OTHER AUDITS

        The OIG intends to focus the balance of its audit resources on insuring that the Chairman,
the Commissioners, and program managers have timely, useful information on the progress of
the CFTC's programs in meeting their goals and objectives. For example, emphasis will be
placed on determining whether all managerial levels engaged in a process can track the progress
oftheir various programs. The tracking systems required in many, though not all, programs will
cross formal organizational lines.

        These audits will entail a cataloging and description of all of the manual and automated
systems used by a program to gather infonnation on its use ofresources, the results ofthe
devotion ofthose resources (including definitions of measurements of accomplishment), and the
reporting ofresults and associated costs to the upper level managers in the Division and to the
Chairman and the Commissioners. The cataloging of these decision support systems will be
followed by an assessment of whether all concerned officials are timely receiving the
information they require to efficiently allocate resources to those uses which best accomplish the
priorities of the Commission. If any elements are lacking in the information systems, they will
be identified and improvements will be recommended if they can be implemented in a
cost/beneficial manner.

        If recommendations are successfully implemented, the proposed systems should allow
the Chairman, the Commissioners, and concerned program managers to track the progress of a
particular program across organizational lines and to quickly determine the effects, if any, of
changes in policy, procedure, or staffing.

      The first step in accomplishing this goal will be to concentrate on documenting, and
recommending the improvement and/or development oftracking systems in every program
element throughout the Commission.

       In addition to our focus on facilitating the development of an efficient flow of
information throughout the agency, the OIG will devote resources to the audit of compliance
with the terms of agency contracts (such as leases of space in New York, Chicago, and
Washington, D.C.), the collection of funds (such as compliance with the terms of the Debt
Collection Improvement Act of 1996 and the resultant Memorandum ofUnderstanding with



                                                17
Treasury), and agency compliance with Congressional mandates (such as the Government
Performance and Results Act and the Government Information Security Reform Act).

RESOURCES REQUIRED

        The GIG estimates that approximately one staff year of effort will be devoted over each
of the next five years to the development of an efficient flow of information throughout the
agency. Nine-tenths of a staff year of effort will be devoted over each of the next five years to
the compliance audits described above. The "Annual Audits" are expected to consume
approximately one-tenth staff year per year.




                                                18
                      CONTACTING THE OFFICE OF THE
                          INSPECTOR GENERAL


       The DIG is located at 1155 21 st Street, N.W., Washington, D.C. 20581. The telephone
number is (202)418-5110. The facsimile number is (202)418-5522. The hotline number is
(202)418-5510. Regular business hours are between 8:30 AM and 5:00 PM, Monday through
Friday, except Federal holidays.




                                              19
                                              Table 1
                                 Reports Issued with Questioned Costs
                                  (October 1,2004 - March 31,2005)


                                                                        Dollar Value
                                                                         Thousands
                                                     Number      Questioned Unsupported

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                   o               o        o
B.   Which were issued during the reporting
     period                                             o               o        o
     Subtotals (A + B)                                  o               o        o
c.   For which a management decision was
     made during the reporting period                   o               o        o
     (I)      dollar value of
              disallowed costs                          o               o        o
     (ii)     dollar value of costs not
              disallowed                                o               o        o
D.   For which no management decision
     has been made by the end of the
     reporting period                                   o               o        o




                                               20
                                              Table 2
                             Reports Issued with Recommendations
                               That Funds be Put to Better Use
                              (October 1, 2004 - March 31,2005)


                                                            Dollar Value
                                                   Number    Thousands

A.   For which no management decision has
     been made by the commencement of the
     reporting period                                o             o
B.   Which were issued during the reporting
     period                                          o             o
     Subtotals (A + B)                               o             o
c.   For which a management decision was
     made during the reporting period                o             o
     (i)      dollar value of
              recommendations that
              were agreed to by management
                                                     o             o
     (ii)     dollar value of
              recommendations that
              were not agreed to by
              management                             o             o
D.   For which no management decision
     has been made by the end of the
     reporting period                                o             o




                                              21
       The Inspector General
       needs yourhelp to
       assure the integrity of
       CFTC's programs.



Report FRAUD, WASTE
or ABUSE to the
INSPECTOR GENERAL

HOTLINE
(202)418-5510
    Office of the Inspector General
 Commodity Futures Trading Commission
        1155 21ST Street, N.W.
        Washington, D.C. 20581
